Controls Over the SEC’s Government
Purchase Card Program




                            March 28, 2014
                            Report No. 517
                                           UNITED STATES
                            SECURITIES AND EXCHANGE COMMISSION
                                       WASHINGTON, D.C. 20549



    OFFICE OF
INSPECTOR GENERAL




                                     MEMORANDUM

                                         March 28, 2014

To:           Vance Cathell, Director, Office of Acquisitions

From:         Carl W. Hoecker, Inspector General, Office of Inspector General

Subject:      Controls Over the SEC’s Government Purchase Card Program,
              Report No. 517

Attached please find the Office of Inspector General’s (OIG) final report detailing the results of
our audit of controls over the U.S. Securities and Exchange Commission’s (SEC’s)
government purchase card program. The report contains 11 recommendations for corrective
action that, if fully implemented, should strengthen the SEC’s government purchase card
program.

On March 13, 2014, we provided you with a draft of our report for your review and comment.
In your response, you concurred with our recommendations. We have included your response
as Appendix III in the final report.

Within the next 45 days, please provide the OIG with a written corrective action plan that
addresses the recommendations. The corrective action plan should include information such
as the responsible official/point of contact, timeframe for completing required actions, and
milestones identifying how your office will address the recommendations.

We appreciate the courtesies and cooperation extended to us during the audit. If you have
questions, please contact me or Rebecca L. Sharek, Deputy Inspector General for Audits,
Evaluations, and Special Projects.

Attachment


cc:     Mary Jo White, Chair
        Erica Y. Williams, Deputy Chief of Staff, Office of the Chair
        Luis A. Aguilar, Commissioner
        Daniel M. Gallagher, Commissioner
        Kara M. Stein, Commissioner
        Michael S. Piwowar, Commissioner
        Jeffery Heslop, Chief Operating Officer
        Anne K. Small, General Counsel
        Timothy Henseler, Director, Office of Legislative and Intergovernmental Affairs
        John J. Nester, Director, Public Affairs
Michael Whisler, Assistant Director, Office of Acquisitions
Judith Blake, Branch Chief, Business Management Office, Office of Acquisitions
Tanya Dorsey, Management and Program Analyst, Business Management
  Office, Office of Acquisitions
Karen Glass, Agency/Organization Program Coordinator, Office of Acquisitions
Darlene L. Pryor, Management and Program Analyst, Office of the Chief
  Operating Officer
U.S. SECURITIES AND EXCHANGE COMMISSION                                          OFFICE OF INSPECTOR GENERAL



Executive Summary                              Controls Over the SEC’s Government Purchase
                                               Card Program
                                               Report No. 517
                                               March 28, 2014

 Why We Did This Audit                     What We Found
 Purchase cards, by their nature, are      We conducted a risk assessment of the SEC’s purchase card
 at risk for misuse, fraud, waste, and     program and determined an overall risk level of moderate. We
 abuse. The Government Charge              found that the SEC Office of Acquisitions (OA) has established
 Card Abuse Prevention Act of 2012         internal controls that reduce the risk of fraud, waste, and abuse
 (Act) requires that executive             in the usage of purchase cards and convenience checks.
 agencies that issue and use               Moreover, we did not find any instances of illegal or erroneous
 purchase cards “establish and             use of purchase cards or convenience checks. Nevertheless,
 maintain safeguards and internal          certain areas need strengthening. We found that:
 controls” over their usage. The Act
                                              purchase cardholders and approving officials did not
 further requires the Inspector
                                               complete or properly document all required training;
 General of each executive agency
 to conduct, at a minimum, annual             controls over purchase card and convenience check
 assessments of the agency’s                   transactions need improvement;
 purchase card program and to
                                              OA did not always adjust monthly credit limits as necessary
 perform analysis or audits, as
                                               or meet all requirements of the Government Charge Card
 necessary, of purchase card
                                               Abuse Prevention Act of 2012;
 transactions. Inspectors General
 must report the results of such              purchase cardholders and approving officials did not timely
 analysis or audits to the head of the         reconcile purchases with bank information;
 executive agency and report to the
 Director of the Office of                    OA did not develop a charge card management plan and
 Management and Budget on the                  other information for agency reporting to the Office of
 agency’s progress in implementing             Management and Budget; and
 corrective actions.                          OA did not review bank rebates for accuracy and proper
                                               recording.
 What We Recommended
                                           Three findings – “BankCard Log Not Used,” “Documentation Not
 To improve the SEC’s controls over        Available,” and “Untimely Certification [of Training]” – were
 its purchase card program, we             previously identified as weaknesses in our 2008 report, Internal
 made 11 recommendations for               Control Review of the Government Purchase Card Program,
 corrective action. The                    Report No. 440, September 18, 2008. Management concurred
 recommendations address training;         with all 17 recommendations for corrective action resulting from
 controls over transactions;               the report, all of which were closed.
 requirements of the Government
 Charge Card Abuse Prevention Act          In September 2012, OA assigned a new Agency/Organization
 of 2012; controls over monthly            Program Coordinator who has taken steps to improve the SEC’s
 purchase limits; reconciliations with     purchase card program. During our audit, the Coordinator
 bank information; and reviews of          identified and reported to management many of the deficiencies
 rebates. Management concurred             we observed. Additional management attention is warranted to
 with the recommendations, which           ensure that the SEC’s safeguards and internal controls over
 will be closed upon completion and        purchase card and convenience check use are adequate and
 verification of corrective action.        effective.

                                          For additional information, contact the Office of Inspector General at
                                          (202) 551-6061 or http://www.sec.gov/about/offices/inspector_general.shtml.

                                                          i
U.S. SECURITIES AND EXCHANGE COMMISSION                                                                OFFICE OF INSPECTOR GENERAL



    TABLE OF CONTENTS
    Executive Summary ..................................................................................................... i

    Background and Objectives .......................................................................................1
              Background ................................................................................................................. 1
              Objectives .................................................................................................................... 4

    Results ........................................................................................................................5
              Finding 1: Compliance With and Oversight of Purchase Card Training Requirements
                 Need Improvement ................................................................................................. 5
              Recommendation 1 ...................................................................................................... 6
              Recommendation 2 ...................................................................................................... 6

              Finding 2: Controls Over Purchase Card and Convenience Check Transactions
                 Need Improvement ................................................................................................. 8
              Recommendation 3 .................................................................................................... 11
              Recommendation 4 .................................................................................................... 11
              Recommendation 5 .................................................................................................... 11
              Recommendation 6 .................................................................................................... 12
              Recommendation 7 .................................................................................................... 12

              Finding 3: OA Did Not Always Adjust Monthly Credit Limits or Meet All Requirements
                 of the Charge Card Abuse Prevention Act ........................................................... 14
              Recommendation 8 .................................................................................................... 15
              Recommendation 9 .................................................................................................... 16

              Finding 4: PCHs and AOs Did Not Timely Reconcile Purchases with Bank
                 Information ........................................................................................................... 17
              Recommendation 10 .................................................................................................. 18

              Finding 5: OA Did Not Develop a Charge Card Management Plan and Other
                 Information for Agency Reporting to OMB ............................................................ 20

              Finding 6: OA Did Not Review Bank Rebates for Accuracy and Proper Recording .... 22
              Recommendation 11 .................................................................................................. 23

    Tables
              Table 1: SEC Purchase Card and Convenience Check Spending by FY ..................... 2
              Table 2: Results of Testing: Sampled Purchase Card and Convenience Check
                 Transactions ........................................................................................................... 9
              Table 3: A/OPC’s Followup on Late Reconciliations and Approvals ........................... 18
              Table 4: SEC Purchase Card Rebates by FY ............................................................ 22

    Appendices
              Appendix I: Scope and Methodology ......................................................................... 24
              Appendix II: Applicable Federal Laws, Regulations, Policies, and Guidance ............. 28
              Appendix III: Management Comments ....................................................................... 30
              Appendix IV: OIG Response to Management Comments .......................................... 33



    REPORT NO. 517                                                       ii                                                MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                               OFFICE OF INSPECTOR GENERAL



    ACRONYMS
    AO                    approving official or alternate approving official
    A/OPC                 Agency/Organization Program Coordinator
    FAR                   Federal Acquisition Regulation
    FY                    fiscal year
    GSA                   General Services Administration
    MCL                   monthly credit limit
    OA                    Office of Acquisitions
    OMB                   Office of Management and Budget
    PCH                   purchase cardholder
    SEC                   U.S. Securities and Exchange Commission
    TFM                   Treasury Financial Manual




    REPORT NO. 517                                iii                              MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                                      OFFICE OF INSPECTOR GENERAL



                               Background and Objectives

    Background
    Executive agencies, including the U.S. Securities and Exchange Commission (SEC),
    use purchase cards and convenience checks1 to purchase needed goods and services.
    Agencies must maintain internal controls that reduce the risk of fraud, waste, and abuse
    in their purchase card programs. Specifically, the Government Charge Card Abuse
    Prevention Act of 2012 (Charge Card Abuse Prevention Act or Act) 2 requires heads of
    executive agencies that issue and use purchase cards and convenience checks to
    “establish and maintain safeguards and internal controls” over their usage. The Act
    further requires the Inspector General of each executive agency to take these actions:

             conduct periodic assessments of the agency’s purchase card program to identify
              and analyze the risks of illegal, improper, or erroneous purchases and payments;

             perform analysis or audits, as necessary, of purchase card transactions designed
              in part to identify potentially illegal, improper, or erroneous uses of purchase
              cards;

             report the results of such analysis or audits to the head of the executive agency
              concerned; and

             report to the Office of Management and Budget (OMB) on the agency’s
              implementation of recommendations that address the audit findings.3

    Additionally, the Act requires the head of each executive agency having more than
    $10 million in annual purchase card spending to report semiannually to the OMB, jointly
    with the agency’s Inspector General, any violations or other actions committed by the
    agency’s employees that are covered by the Act. OMB Memorandum M-13-21,
    Implementation of the Government Charge Card Abuse Prevention Act of 2012,
    September 6, 2013, provides guidance to executive departments and agencies on
    implementing the Act’s internal control and reporting requirements.

    1
      According to Office of Management and Budget Circular A-123, Management’s Responsibility for
    Internal Control, Appendix B, Revised, convenience checks are “a payment and/or procurement tool
    intended only for use with merchants that do not accept purchase cards and for other authorized
    purposes where charge cards are not accepted.” In this report, “purchase card program” includes both
    purchase cards and convenience checks.
    2
        Public Law 112-194 (October 5, 2012).
    3
      On January 27, 2014, we reported to OMB that our most recent audit of the SEC’s purchase card
    program – Internal Control Review of the Government Purchase Card Program, Report No. 440,
    September 18, 2008 – resulted in 17 recommendations for corrective action, all of which were closed (see
    http://www.sec.gov/about/offices/oig/reports/audits/2008/440finmemo.pdf). We further reported that the
    OIG was in the process of performing an audit of the SEC’s purchase card program and expected to
    issue this report by March 31, 2014.

    REPORT NO. 517                                     1                                    MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                                       OFFICE OF INSPECTOR GENERAL


    As shown in Table 1, the SEC’s purchase card and convenience check spending
    averaged about $5.3 million between fiscal years (FY) 2010 and 2013.4

           Table 1: SEC Purchase Card and Convenience Check Spending by FY
                             Purchase            Convenience
                                                                                  Average Amount
                FY             Card                Check            Total
                                                                                       Spent
                             Spending             Spending
              2010          $4,932,258            $184,980       $5,117,238
              2011          $4,474,987            $324,395       $4,799,382
                                                                                     $5,266,202
              2012          $5,636,457            $512,063       $6,148,520
              2013          $4,531,635            $468,031       $4,999,666
           Source: SEC Office of Acquisitions.

    The requirements for agency acquisitions using simplified acquisition methods such as
    government purchase cards are outlined in the Federal Acquisition Regulation (FAR).5
    Additionally, OMB Circular No. A-123, Management’s Responsibility for Internal Control,
    Appendix B, Revised (OMB Circular A-123), provides policies and procedures for
    agencies’ management of purchase cards and requires agencies to have internal
    controls to reduce the risk of fraud, waste, and error in the usage of those cards.
    Further, SEC Operating Procedure, OP 10-6, Government Purchase Card Program (OP
    10-6), details the policies and procedures for the SEC’s purchase card program and
    describes the responsibilities of those who administer and manage the program.

    SEC’s Purchase Card Program

    The Office of Acquisitions (OA) oversees the SEC’s purchase card program.
    Specifically, OA’s Agency/Organization Program Coordinator (A/OPC) is responsible for
    the program’s management, administration, and day-to-day operations. According to
    OP 10-6, the A/OPC’s responsibilities include, in part, the following duties:

             reviewing and processing nominations for new purchase cardholders (PCHs) and
              approving officials (AOs)6 and opening, maintaining, and closing cardholder
              accounts;

             facilitating and ensuring adequate training and maintaining PCH and AO training
              records;

             developing and updating program policies and procedures and serving as the
              primary contact for program policy matters;
    4
      Because the SEC’s annual purchase card spending amounted to less than the $10 million reporting
    threshold, the SEC Office of Inspector General and the SEC Chair are not required to issue to OMB a
    joint semiannual report.
    5
        48 Code of Federal Regulations, Chapter 1, Subchapter C, Part 13.
    6
     In this report, “AO” also refers to personnel who function as alternate AOs when the designated AO is
    unavailable.

    REPORT NO. 517                                       2                                   MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                                        OFFICE OF INSPECTOR GENERAL


           reviewing and raising or lowering purchase card credit limits; and

           serving as the SEC liaison with the bank that issues purchase cards and
            ensuring that PCHs timely reconcile transactions with bank information.

    Until December 2011, the SEC’s purchase card issuer was J.P. Morgan Chase and Co.
    (J.P. Morgan Chase). U.S. Bancorp has been the SEC’s purchase card issuer from
    January 2012 to present.

    As of September 30, 2013, the SEC had 85 PCHs at its headquarters and regional
    offices. PCHs have a single purchase, micro-purchase threshold7 of $3,000 for stand-
    alone procurements and a monthly purchase limit set by the A/OPC. In addition, every
    PCH has a designated AO who is required to approve purchases in advance.

    Some PCHs also use convenience checks to purchase needed goods and services.
    However, according to OMB Circular A-123 and OP 10-6, convenience checks are
    permitted only when a vendor does not accept the purchase card and there is no other
    source available. Before using a convenience check, PCHs are required to make a
    reasonable effort to locate another vendor that can provide the same goods and
    services and that can accept the purchase card; PCHs are also required to document
    that effort.

    Purchase Card and Convenience Check Training

    As a safeguard and internal control, the Charge Card Abuse Prevention Act mandates
    that “[a]ppropriate training is provided to each purchase cardholder and each official
    with responsibility for overseeing the use of purchase cards issued by the executive
    agency.” OMB Circular A-123, as well as Treasury Financial Manual Part 4—4500,
    Government Purchase Cards (TFM, Part 4—4500), also require that PCHs and AOs
    complete training before their appointments, take refresher training at least every
    3 years, and maintain evidence of completed training. Lastly, the SEC’s purchase card
    operating procedure requires PCHs and AOs to take initial and refresher training.

    Specifically, OP 10-6 requires PCHs, AOs, and the A/OPC (purchase card program
    participants) to take the online course “GSA [General Services Administration]
    SmartPay Purchase Card Training (Cardholders).” PCHs and AOs are required to
    complete the training before assuming their purchase card duties. The course provides
    PCHs and AOs instructions on how to secure and use the purchase card and how to
    avoid fraudulent use. The course also includes standards of conduct and ethics for the
    use of the card and the consequences for misuse of the card. PCHs who use
    convenience checks are required to take supplemental training before using the checks.
    PCHs must confirm with the A/OPC that they have completed the convenience check
    training. Purchase card program participants are also required to take the GSA online
    purchase card course as refresher training every 3 years. Upon completing the course,

    7
      According to the FAR, Section 13.201, a “micro-purchase” is an acquisition of supplies or services using
    simplified acquisition procedures. The amount of the purchase cannot exceed the specified “micro-
    purchase threshold.”

    REPORT NO. 517                                      3                                     MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                             OFFICE OF INSPECTOR GENERAL


    purchase card program participants must take a test and score 75 percent or higher to
    obtain a completion certificate. The certificate includes the employee’s name, course
    name, and training completion date. The employee is required to print a copy of the
    certificate for his or her records and provide a copy to the A/OPC.

    Best Practice – A/OPC’s Reviews of PCH Activity

    In September 2012, OA assigned a new A/OPC. In January 2013, the A/OPC began
    conducting reviews of the purchase card records for all PCHs with purchase cards as of
    December 31, 2012 (74 cardholders). The A/OPC performed the reviews from January
    to August 2013. The A/OPC informed us that the reviews consisted of discussions with
    PCHs about their purchase card and convenience check procedures and reviews of a
    sample of purchase card transactions. In September 2013, the A/OPC detailed her
    findings in a memo to the OA Director. The A/OPC informed us that she would be
    conducting reviews of all PCHs again in FY 2014. She indicated in her memo to the OA
    Director that she would schedule FY 2014 reviews first with those cardholders who were
    found noncompliant with policies and procedures “to ensure proper corrective actions
    were implemented.” We consider the A/OPC’s reviews to be a best practice.

    Objectives
    The objectives of the audit were to:

           determine whether the SEC’s purchase card program effectively operates and is
            properly managed in compliance with governing laws and regulations and
            agency policy; and

           assess whether the internal controls over the SEC’s purchase card program have
            been adequately designed, appropriately implemented, and are operating
            effectively to detect misuse, fraud, waste, or abuse by cardholders or others.

    Appendixes I and II include additional information on our scope and methodology;
    review of internal controls; statistical sampling; prior coverage; and the applicable
    Federal laws, regulations, policies, and guidance.




    REPORT NO. 517                               4                               MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                            OFFICE OF INSPECTOR GENERAL



                                          Results

    Finding 1: Compliance With and Oversight of Purchase Card
    Training Requirements Need Improvement
           Some PCHs and AOs did not complete required refresher training.
           In addition, some AOs had not taken any purchase card training.
           Further, OA’s purchase card training files were not current for all
           purchase card program participants.

    OMB Circular A-123, TFM Part 4—4500, and OP 10-6 require PCHs and AOs to
    complete training before their appointments and to take periodic refresher training.
    Purchase card program participants are further required to document their completion of
    purchase card training.

    The A/OPC oversees cardholder training and maintains the OA file that contains the
    PCHs’ and AOs’ training records. In addition, the A/OPC keeps a control list of all
    PCHs and AOs and the dates they last completed required training. The A/OPC uses
    that list to monitor the PCHs’ and AOs’ training status to ensure that they comply with
    training requirements.

    To determine whether purchase card training was properly managed for compliance
    with governing regulations and guidance and whether appropriate internal controls were
    designed, implemented, and operating effectively, we reviewed PCH and AO training
    and A/OPC oversight. We obtained the A/OPC’s May 28, 2013, control list, which
    consisted of the names and training dates of 137 PCHs and AOs. We then reviewed
    OA’s training records for all PCHs and AOs. We noted that some AOs oversee more
    than one PCH and that some PCHs also function as AOs to other PCHs.

    We determined that most SEC purchase card program participants had timely
    completed required purchase card training, as evidenced by a current training certificate
    in OA’s files. However, we found that 8 percent (10 of 137) of PCHs and AOs—7 PCHs
    and 3 AOs—had training certificates that were over 3 years old. We also found that an
    additional four AOs did not have any training certificates on file. We contacted those
    14 individuals and asked whether they had current purchase card training certificates.
    One PCH who had an outdated certificate on file and one AO who had no certificate on
    file provided us with certificates that showed their purchase card training was current.
    We were unable to locate current certificates for the remaining 12 PCHs and AOs
    identified as having missing or outdated certificates. Our review determined that the
    purchase card training files were not current and that PCH and AO compliance with
    training requirements, and A/OPC oversight, need to be strengthened.

    We also found that the A/OPC had not tracked PCHs’ convenience check training. This
    training consists of PowerPoint presentation slides that PCHs are required to review
    before they can use convenience checks. The A/OPC informed us that since March



    REPORT NO. 517                              5                                MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                             OFFICE OF INSPECTOR GENERAL


    2013 she has required PCHs to confirm that they have viewed the slides and that they
    have no questions about them. The A/OPC also told us that she was extending this
    requirement to AOs.

    Conclusion

    Not all PCHs and AOs complied with training requirements. Further, OA had not fully
    established controls to ensure that PCHs and AOs complied with the SEC’s training
    policy. We noted that the A/OPC had been newly assigned and had not had an
    opportunity to fully establish such controls.

    Without effective controls over purchase card training, PCHs and AOs might not
    complete required training, which could result in a lack of awareness about purchase
    card program requirements and restrictions. This could potentially lead to misuse of
    purchase cards and/or convenience checks.

        Recommendation 1:

        The Office of Acquisitions should (a) establish procedures to periodically verify that
        purchase cardholders and approving officials have taken the required purchase card
        and convenience check training; and (b) restrict purchase cardholders’ use of
        purchase cards or approving officials’ participation in the approval process when
        those individuals do not timely complete required purchase card training.

           Management Comments. The OA Director concurred with this recommendation
           and stated that OA had identified this issue and was working to correct it during
           the audit. The OA Director further stated that OA completed a 100 percent
           verification of training in July 2013 and established internal procedures and
           controls to assure that training is current and that OA takes action to restrict
           official’s participation if training is not current. Management’s complete response
           is reprinted in Appendix III.

           OIG Evaluation of Management’s Response. Management’s actions are
           responsive; therefore, the recommendation is resolved and will be closed upon
           verification of the actions taken.

        Recommendation 2:

        The Office of Acquisitions should remind purchase cardholders and approving
        officials of the requirement to (a) notify the Agency/Organization Program
        Coordinator that they have completed initial and refresher training; and (b) send their
        training certificates to the Agency/Organization Program Coordinator.

           Management Comments. The OA Director concurred with this recommendation
           and stated that the A/OPC conducted training in August 2013, and provided a
           general reminder to all purchase card program participants. The OA Director
           further stated that, as training renewals become due, each participant will be
           reminded and appropriate action will be taken if their training certificates are not
           received. Management’s complete response is reprinted in Appendix III.

    REPORT NO. 517                               6                               MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                         OFFICE OF INSPECTOR GENERAL


           OIG Evaluation of Management’s Response. Management’s actions and
           proposed actions are responsive; therefore, the recommendation is resolved and
           will be closed upon verification of the actions taken.




    REPORT NO. 517                            7                              MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                                     OFFICE OF INSPECTOR GENERAL



    Finding 2: Controls Over Purchase Card and Convenience
    Check Transactions Need Improvement
              PCHs and AOs did not fully comply with the SEC’s purchase card
              program’s operating procedure. Further, OA did not implement
              adequate internal controls needed to ensure that PCHs obtained
              and maintained supporting documentation and used purchase card
              logs and that AOs properly approved purchase card and
              convenience check transactions.

    Federal laws and regulations, as well as the SEC’s purchase card operating procedure,
    require PCHs to obtain and keep adequate documentation for purchase card
    transactions and to adhere to purchase card policies. The Charge Card Abuse
    Prevention Act requires that each executive agency establish safeguards and internal
    controls to ensure that the “[r]ecords of each purchase card transaction (including
    records on associated contracts, reports, accounts, and invoices) are retained in
    accordance with standard Government policies on the disposition of records.”
    According to the National Archives and Records Administration guidelines,8 these
    materials must be retained for 3 years after the final payment is made. OP 10-6
    requires cardholders to “[m]aintain supporting documentation of individual transactions,
    such as vendor quotes, receipts, invoices, and sole-source justifications if applicable,
    and make documentation readily available for examination.” OP 10-6 also requires
    PCHs to keep a purchase card log which, along with the documentation supporting
    each transaction, must be reconciled with bank information.

    Supporting documentation assists the AO and the A/OPC in examining the
    appropriateness of a given purchase, and the PCHs need it to reconcile their purchase
    records with the transaction information from the bank. PCHs are also required to
    obtain the AO’s approval in writing before making a purchase.

    OP 10-6, in alignment with OMB Circular A-123, states that “[c]ardholders may use
    convenience checks as a method of payment for transactions only when the vendor will
    not accept a GPC [government purchase card] and no other source is available.” OP
    10-6 requires the PCH, before using a convenience check, to make a reasonable effort
    to locate a vendor that provides the same goods and services and accepts purchase
    cards. PCHs are also required to document that effort.

    Testing of Purchase Card and Convenience Check Transactions

    To determine whether controls over the purchase card program were effectively
    operating and properly managed in compliance with governing regulations, guidance,
    and policy, we randomly selected a total of 148 transactions, comprised of two samples.
    We selected 749 purchase card and convenience check transactions from a universe of

    8
     National Archives and Records Administration, General Records Schedules, Transmittal No. 22, April
    2010, General Records Schedule 3, Procurement, Supply, and Grant Records.
    9
        Ten of the 148 transactions were made with convenience checks.

    REPORT NO. 517                                      8                                 MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                                            OFFICE OF INSPECTOR GENERAL


    approximately 25,000 transactions from October 2009 to September 2012,10 and
    74 purchase card and convenience check transactions from a universe of
    7,368 transactions from October 2012 to September 2013. The PCHs were requested
    to provide documentation to support the related transactions. Second, and in some
    cases, third requests were sent to PCHs who did not respond to our initial requests for
    information or who did not provide all requested documents.

    Using the supporting documents provided to us, we tested the transactions to determine
    whether they were properly approved, adequately documented, and followed Federal
    regulations and SEC policy. Table 2 shows the results of our testing.

    Table 2: Results of Testing: Sampled Purchase Card and Convenience Check
    Transactions
                             Results                                                 Cause
     For 2 of 148 transactions, PCHs did not provide              OA did not, at the time, have a process to
     supporting documents; those two transactions                 obtain the records of PCHs who relinquish
     were made by individuals who are no longer                   their purchase cards.
     PCHs.
     For 52 out of 148 transactions, the PCHs did not             These PCHs did not comply with OP 10-6,
     provide documentation that the AO had approved               which requires PCHs to obtain AO approval in
     the transactions before the purchases were                   writing before making a purchase.
     made.
     For 3 out of 10 convenience check transactions,              These PCHs did not comply with OP 10-6
     no documentation was provided to support the                 documentation requirements for the use of
     use of convenience checks.                                   convenience checks.
     For 18 out of 148 transactions, we did not find the          Certain PCHs used self-designed purchase
     purchase recorded on the purchase log, or the                log formats instead of the OA-recommended
     amount either was not recorded on the log or                 template; we could not find all purchases
     differed from the amount on the invoice or bank              recorded on these logs. Some differences
     information.                                                 between the log and the bank information
                                                                  were due to the accumulation of amounts on
                                                                  the log that were shown individually by the
                                                                  bank.
     For 18 out of 148 transactions, PCHs did not                 Some PCHs did not adhere to the requirement
     provide purchase card logs.                                  in OP 10-6 to maintain purchase card logs.
     For 2 purchase card transactions, there was no               Certain PCHs did not comply with SEC policy.
     documented preapproval by the Office of
     Financial Management for the purchase of food
     or drink.
    Source: Results of Office of Inspector General transactions testing.

    Overall, we did not identify any instances of illegal or erroneous use of the purchase
    card. However, we found areas that need improvement and additional oversight. For
    example, for some transactions in our sample, we were unable to obtain supporting

    10
      We were unable to test transactions for October 2009 because the bank statements were not available.
    We also did not test transactions from January through March of 2012, because the information from the
    bank indicated that those months’ transactions had not been closed.

    REPORT NO. 517                                            9                                  MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                                        OFFICE OF INSPECTOR GENERAL


    documentation or evidence that the AO had approved the transaction before the
    purchase was made. In addition, for some transactions using convenience checks, no
    documentation was provided to show that the PCH had made a reasonable effort to
    locate other vendors that could provide the same goods and services and that could
    accept the purchase card. Finally, we found that some PCHs had not maintained or
    properly completed purchase card logs in accordance with OP 10-6. These instances
    were primarily caused by a lapse in compliance by PCHs and oversight by OA and
    resulted in reduced controls over purchasing activity. We previously identified
    deficiencies in the maintenance of purchase logs and the unavailability of
    documentation in our audit report entitled Internal Control Review of the Government
    Purchase Card Program, Report No. 440, September 18, 2008.11

    Moreover, our review revealed an internal control deficiency in the processing and
    approval of certain invoices for deposition services. A PCH informed us that an SEC
    attorney had requested deposition services directly from a vendor and that the vendor
    had forwarded three resulting invoices, totaling $5,247, directly to the attorney. The
    PCH said that she was unaware of the transaction until she received the invoices from
    the attorney. The AO told us that he had not approved the transactions before the
    services were ordered, as required. The A/OPC also noted this practice during her FY
    2013 reviews of cardholder activity. In her summary memo to the OA Director, the
    A/OPC stated, “There was a long-term acceptance of the practice of attorneys and
    paralegals contacting vendors with the intention of ordering services/supplies,” and she
    called it a “serious” issue. If SEC attorneys continue this practice, there is a risk that the
    PCHs could exceed their spending limits, and/or the attorneys could make unauthorized
    purchases of goods and services.

    Conclusion

    We found deficiencies in AOs’ purchase approvals and PCHs’ transaction
    documentation and purchase log maintenance. We also identified an internal control
    deficiency in the processing and approval of certain invoices. Specifically, an SEC
    attorney, rather than the PCH, had ordered deposition services from a vendor, and the
    AO did not approve the transaction before it was placed.

    Accordingly, internal controls over purchase card and convenience check transactions
    need strengthening. This includes controls for PCHs’ and AOs’ compliance with
    purchase card policy and the A/OPC’s related oversight responsibilities. Having
    effective controls helps ensure that purchase cards and convenience checks are used
    properly in accordance with governing regulations, guidance, and policy.




    11
       The report can be accessed over the Internet at
    http://www.sec.gov/about/offices/oig/reports/audits/2008/440finmemo.pdf.

    REPORT NO. 517                                    10                                    MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                             OFFICE OF INSPECTOR GENERAL


        Recommendation 3:

        The Office of Acquisitions should ensure that the Agency/Organization Program
        Coordinator takes these actions:

           (a) continues to conduct periodic purchase card reviews and monitors
           compliance with purchase card policies such as (1) transaction approvals by
           approving officials prior to purchase; (2) adequate documentation of purchase
           card and convenience check transactions; and (3) maintenance of purchase logs
           using the purchase log template; and

           (b) promptly communicates to the appropriate purchase cardholders and
           approving officials any deficiencies identified during these reviews that need
           corrective action.

           Management Comments. The OA Director concurred with this recommendation
           and stated that the A/OPC will continue to follow the procedures and
           communicate any deficiencies identified for corrective action. Management’s
           complete response is reprinted in Appendix III.

           OIG Evaluation of Management’s Response. Management’s proposed actions
           are responsive; therefore, the recommendation is resolved and will be closed
           upon verification of the actions taken.

        Recommendation 4:

        The Office of Acquisitions should (a) remind purchase cardholders and approving
        officials that only cardholders may order goods and services; and (b) ensure that the
        Agency/Organization Program Coordinator includes compliance with this
        requirement in her periodic purchase card reviews.

           Management Comments. The OA Director concurred with this recommendation
           and stated that the A/OPC reminded purchase card program participants during
           the August 2013 training that only cardholders may place orders. The OA
           Director further stated that the A/OPC will review compliance during the periodic
           purchase card reviews. Management’s complete response is reprinted in
           Appendix III.

            OIG Evaluation of Management’s Response. Management’s actions and
            proposed actions are responsive; therefore, the recommendation is resolved
            and will be closed upon verification of the actions taken.

        Recommendation 5:

        The Office of Acquisitions should take appropriate action, up to and including
        suspension and cancellation of purchase card or approval authority, for cardholders
        and approving officials who do not comply with purchase card policies.



    REPORT NO. 517                              11                               MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                            OFFICE OF INSPECTOR GENERAL


           Management Comments. The OA Director concurred with this recommendation
           and stated that, based on the facts of any occurrence, OA will consider other
           remedies up to and including suspension or cancellation of program authority for
           those who fail to comply with purchase card policies. Management’s complete
           response is reprinted in Appendix III.

           OIG Evaluation of Management’s Response. Management’s proposed actions
           are responsive; therefore, the recommendation is resolved and will be closed
           upon verification of the actions taken.

        Recommendation 6:

        The Office of Acquisitions should consider obtaining a contract for deposition
        services.

           Management Comments. The OA Director concurred with this recommendation
           and stated that OA’s Mission Support Branch, in conjunction with the
           Enforcement Division, has been working on a strategic sourcing initiative. The
           OA Director further stated that a request for proposal was issued, proposals are
           being evaluated, and an award is anticipated in the near future. Management’s
           complete response is reprinted in Appendix III.

           OIG Evaluation of Management’s Response. Management’s proposed actions
           are responsive; therefore, the recommendation is resolved and will be closed
           upon verification of the actions taken.

        Recommendation 7:

        The Office of Acquisitions should determine whether the purchase of deposition
        services without proper authority and approval is consistent with (a) SEC Operating
        Procedure OP 10-6, “Government Purchase Card Program”; and (b) SEC
        Administrative Regulations SECR 10-1 (Rev. 1), “Ratification of Unauthorized
        Commitments,” and take appropriate action as necessary.

           Management Comments. The OA Director concurred with this recommendation
           and stated that OA shares the concern about potential procurement of deposition
           services or other services without proper authority and is committed to
           implementing the purchase card program with all reasonable controls to assure
           proper exercise of authority. The OA Director further stated that ongoing efforts
           to establish contractual methods to support deposition services, increase
           oversight, and enhance training for program participants will effectively manage
           risk in this area. Management’s complete response is reprinted in Appendix III.

           OIG Evaluation of Management’s Response. We are pleased that
           management concurred with this recommendation and agree that management’s
           proposed actions will improve controls over future purchases. However, we
           reiterate that OA should determine whether known purchases of deposition
           services without proper authority and approval require action in accordance with


    REPORT NO. 517                              12                              MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                          OFFICE OF INSPECTOR GENERAL


           SEC Administrative Regulations SECR 10-1 (Rev. 1), “Ratification of
           Unauthorized Commitments.” We will conduct followup activities to determine
           whether OA takes corrective action that is responsive to the recommendation.




    REPORT NO. 517                            13                              MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                           OFFICE OF INSPECTOR GENERAL



    Finding 3: OA Did Not Always Adjust Monthly Credit Limits
    or Meet All Requirements of the Charge Card Abuse
    Prevention Act
           OA does not periodically review and adjust PCHs’ monthly credit
           limits (MCL) to reflect actual needs. Also, OA has not established
           policies on the number of purchase cards to issue to PCHs,
           authorized credit limits, and categories of employees eligible for
           cards, as required by the Charge Card Abuse Prevention Act.

    Government purchase cards have credit limits on the total amount that PCHs can spend
    during the month. Credit limit requirements are governed by the Charge Card Abuse
    Prevention Act, OMB Circular A-123, and OP 10-6. MCLs are designed to reduce
    financial risks. They ensure that PCHs do not have more credit than they require to
    make needed purchases. MCLs help prevent PCHs from spending more than is
    authorized, and they also reduce the risk that PCHs might use the card to procure
    unauthorized products or services. Therefore, it is important that the MCLs do not
    exceed the amount that the PCHs actually need.

    To determine whether OA’s process for establishing and reviewing MCLs was operating
    effectively and was properly managed, we reviewed OA’s process for determining the
    PCHs’ MCLs. Previously, the default MCL for all PCHs was set at $50,000; however,
    MCLs no longer have a default amount. The PCH’s supervisor recommends an MCL
    for that PCH at the time a new purchase card application is completed. The A/OPC told
    us that she reduced some PCHs’ limits after reviewing cardholder activity.

    The A/OPC informed us that in December 2013 she compared, for each PCH, the
    highest month’s purchase card and convenience check spending for FY 2013 with the
    PCH’s assigned MCL. She then sent an email to each PCH’s AO, listing the highest
    month’s spending and the assigned MCL. The A/OPC stated in her email, “Specifically,
    if there is a wide gap from what you spent in FY13/month and what is authorized, we
    will be seeking to reduce the monthly limit.” In that email she also asked the AO to
    recommend, for the PCH, an appropriate MCL for FY 2014. We obtained and reviewed
    the A/OPC’s emails and noted that the highest month’s spending in FY 2013 was
    sometimes significantly less than the assigned MCL. For example, according to the
    emails, one PCH with a $50,000 MCL spent less than $1,000 in her most active month;
    another PCH with a $50,000 MCL spent in her most active month less than $10,000.

    In summary, the MCLs of PCHs sometimes greatly exceeded their monthly spending.
    Better oversight over MCLs is needed to ensure that they align more closely with actual
    purchasing needs and reflect actual usage over a period of time as well as anticipated
    purchasing requirements. Having an MCL that is significantly higher than the PCH’s
    purchasing needs creates a risk that the PCH could use the purchase card to spend
    more than is actually required to purchase goods and services.




    REPORT NO. 517                            14                                MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                             OFFICE OF INSPECTOR GENERAL


    Need for Policies on the Number, Categories, Credit Limits, and Eligibility of
    Cardholders

    The Charge Card Abuse Prevention Act requires “specific policies regarding the number
    of purchase cards issued by various component organizations and categories of
    component organizations, the credit limits authorized for various categories of
    cardholders, and categories of employees eligible to be issued purchase cards, and that
    those policies are designed to minimize the financial risk to the Federal Government of
    the issuance of the purchase cards and to ensure the integrity of purchase card
    holders.”

    The Charge Card Abuse Prevention Act was enacted in October 2012, and OA has not
    yet established and implemented policies on the categories of employees who are
    eligible for cards, the number of purchase cards to issue, and authorized credit limits for
    the different categories of PCHs. OA officials told us that the SEC is a small agency
    and categories of cardholders and employees are not needed. As a result, the SEC’s
    purchase card program is not fully aligned with the Act’s policy requirements. By not
    having established policies in these areas, there is a risk that the SEC’s purchase cards
    could be abused or misused.

    Conclusion

    We noted that there were PCHs whose monthly purchases were much lower than their
    MCLs. This indicates that all MCLs and PCH spending trends should be reviewed to
    determine whether PCHs’ MCLs should be lowered and aligned with the amount that
    the PCHs actually need. In addition, OA did not establish and implement the Charge
    Card Abuse Prevention Act requirements on credit limits, categories of cardholders, and
    eligible employees. The SEC should establish and implement all polices that are
    required by the Act.

        Recommendation 8:

        The Office of Acquisitions should ensure that the Agency/Organization Program
        Coordinator, at least annually, reviews the purchase cardholders’ monthly credit
        limits and adjusts the limits on the basis of the purchase cardholders’ actual needs.

           Management Comments. The OA Director concurred with this recommendation
           and stated that the A/OPC has instituted a review of the monthly credit limits, to
           occur annually at the minimum. Management’s complete response is reprinted in
           Appendix III.

           OIG Evaluation of Management’s Response. Management’s proposed actions
           are responsive; therefore, the recommendation is resolved and will be closed
           upon verification of the actions taken.




    REPORT NO. 517                              15                               MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                           OFFICE OF INSPECTOR GENERAL


        Recommendation 9:

        The Office of Acquisitions should establish and implement policies on the number of
        purchase cards issued by various component organizations, the categories of
        component organizations, credit limits authorized for various categories of
        cardholders, and the categories of employees who are eligible to be issued a
        purchase card, as required under the Government Charge Card Abuse Prevention
        Act of 2012.

           Management Comments. The OA Director concurred with this recommendation
           and stated that, although the SEC has no component organizations that will be
           issuing purchase cards, OA will establish limits on the categories of employees
           who are eligible to receive purchase cards as well as their credit limits.
           Management’s complete response is reprinted in Appendix III.

           OIG Evaluation of Management’s Response. Management’s proposed actions
           are responsive; therefore, the recommendation is resolved and will be closed
           upon verification of the actions taken.




    REPORT NO. 517                             16                              MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                            OFFICE OF INSPECTOR GENERAL



    Finding 4: PCHs and AOs Did Not Timely Reconcile
    Purchases with Bank Information
           Our review of the reconciliation process found that PCHs were not
           timely reconciling purchases with purchase card bank information.
           Further, AOs were not timely approving PCHs’ reconciliations.

    Reconciliation is an essential internal control for the purchase card program. It ensures
    that the bank has accurately recorded purchases and that the PCH has properly verified
    the purchases with the supporting documentation such as invoices and receipts. The
    Charge Card Abuse Prevention Act provides that purchase cardholders and officials
    with the authority to authorize purchase card transactions are responsible for
    “reconciling the charges appearing on each statement of account for that purchase card
    with receipts and other supporting documentation.” The SEC’s Government Purchase
    Card Program Supplemental Procedures, dated December 21, 2012 (Supplemental
    Procedures), require PCHs to “at a minimum reconcile their transactions within 30 days
    of the posting date.” Once the PCH has completed reconciliation, the AO should review
    and approve the reconciliation within that same 30-day timeframe.

    To assess whether internal controls over the reconciliation process were adequately
    designed, appropriately implemented, and operating effectively, we reviewed the status
    of reconciliations with the A/OPC. The A/OPC informed us that some PCHs and AOs
    were not completing their reconciliations and approvals within the required 30-day
    period. We asked the A/OPC what control procedures she had implemented to remedy
    the situation, and she told us that she sends an email to those who miss, or are about to
    miss, the 30-day deadline.

    We obtained and reviewed the A/OPC’s emails to the PCHs and AOs, which evidenced
    her followup efforts. For example, we found that on December 28, 2012, one week after
    the issuance of the Supplemental Procedures, which include the 30-day reconciliation
    requirement, the A/OPC sent an email to the PCHs and AOs informing them that they
    “…MUST reconcile transactions within 30 days…. Currently there are lots of
    transactions which need to be reviewed and approved and some are very close to
    exceeding the 30 day timeline.” We further found that she had followed up, on an
    ongoing basis, late or soon-to-be late reconciliations that the PCHs and AOs were
    responsible for completing. Table 3 details the A/OPC’s followup on reconciliations
    during the first 6 months of calendar year 2013.




    REPORT NO. 517                             17                               MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                             OFFICE OF INSPECTOR GENERAL


         Table 3: A/OPC’s Followup on Late Reconciliations and Approvals
                                   Number of PCHs          Status of Reconciliations
               Email Dates
                                      and AOs              Noted in A/OPC’s Emails
             January 11, 2013             28        Late
             January 16, 2013             13        Late or will be late within the week
             January 25, 2013             6         Will be late within two weeks
             February 1, 2013             8         Will be late within two weeks
            February 22, 2013             7         Late or will be late within the week
              March 18, 2013              9         Late or will be late within the week
               April 26, 2013             19        Late or will be late within two weeks
               May 1, 2013                13        Late
               May 23, 2013               20        Late or will be late within two weeks
              June 24, 2013               21        Late or will be late within two weeks
         Source: A/OPC, OA.

    By not performing timely reconciliations, PCHs and AOs could expose the SEC to
    undue financial risks. In February 2014, the A/OPC notified PCHs that those who miss
    the 30-day deadline for reconciliation would have their purchase card use suspended
    until all late reconciliations were completed.

    Conclusion

    Some PCHs and AOs have not adhered to the SEC’s requirement to reconcile and
    approve reconciliations within 30 days of the bank’s posting of charges, despite the
    A/OPC’s commendable ongoing monitoring and followup efforts. It is important that
    PCHs and AOs reconcile the bank’s information with their purchase documentation in a
    timely manner. Banks could incorrectly record charges for transactions, and OA would
    be unaware because PCHs and AOs are not timely reconciling their transactions.

        Recommendation 10:

        The Office of Acquisitions (OA) should (a) notify the supervisors of purchase
        cardholders and approving officials who are habitually late reconciling purchase card
        transactions with bank information or approving such reconciliations, and
        (b) consider cancelling the purchase card program authorities of such employees.

           Management Comments. The OA Director concurred with this recommendation
           and stated that the A/OPC has already issued guidance to purchase card
           program participants that late reconciliation will result in suspension of the
           cardholder account. The OA Director further stated that OA will consider other
           remedies up to and including cancellation of program authority. Management’s
           complete response is reprinted in Appendix III.



    REPORT NO. 517                             18                                   MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                         OFFICE OF INSPECTOR GENERAL


           OIG Evaluation of Management’s Response. Management’s actions and
           proposed actions are responsive; therefore, the recommendation is resolved and
           will be closed upon verification of the actions taken.




    REPORT NO. 517                            19                             MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                               OFFICE OF INSPECTOR GENERAL



    Finding 5: OA Did Not Develop a Charge Card Management
    Plan and Other Information for Agency Reporting to OMB
            OA did not develop a charge card management plan and specified
            statistical and narrative information for the agency’s reporting to
            OMB in accordance with OMB Circular A-123.

    Chapter 2.1 of OMB Circular A-123 requires Federal agencies with a purchase card
    program to have a “charge card management plan.” The plan is to include the following
    elements:

           identification of key management officials and their responsibilities for the
            charge card program;

           establishment of a process for formally appointing PCHs and AOs, where
            applicable, and implementation of a process to ensure new PCHs’
            creditworthiness;

           management controls, policies, and practices to ensure appropriate
            charge card and convenience check usage and oversight of payment
            delinquencies, fraud, misuse, or abuse;

           establishment of appropriate authorization controls;

           documentation and record retention requirements;

           recovery of purchase cards and other documentation when employees
            terminate employment; and

           description of how the agency will ensure the ongoing effectiveness of the
            actions taken pursuant to OMB Circular A-123, including evaluation of the
            effectiveness of training and the implementation of risk management
            controls.

    According to OMB Circular A-123, maintaining a charge card management plan is
    important because establishing written, formal policies and procedures is needed to
    assure that internal controls are followed and the potential for fraud, misuse, and
    delinquency is minimized. The efficiency and integrity of the charge card program can
    be impaired if the agency does not consider and act upon the elements required in the
    plan. Agencies are required to submit charge card management plans at least annually,
    but not later than January 31 of each calendar year.

    We determined that OA did not develop and maintain specified statistical and narrative
    information about the charge card program for the SEC’s reporting to OMB, as required
    by Chapter 5.3 of OMB Circular A-123. The SEC is required to report to OMB’s Office
    of Federal Financial Management statistical information on an annual basis and
    narrative information on a biannual basis.


    REPORT NO. 517                                20                               MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                          OFFICE OF INSPECTOR GENERAL


    The A/OPC told us that she was unaware of these requirements and that OA had not
    developed or maintained a charge card management plan nor had OA developed
    specified statistical or narrative information for submission to OMB. The former A/OPC
    told us that she had thought this reporting was not required. The A/OPC told us that OA
    would develop a charge card management plan and the required statistical and
    narrative information for submission to OMB by January 31, 2014.

    The A/OPC subsequently notified us that, on January 29, 2014, OA sent to OMB the
    charge card management plan dated January 28, 2014, and the required statistical and
    narrative information. The A/OPC sent us a copy of the documents. Accordingly, we
    are not making a recommendation for corrective action.




    REPORT NO. 517                            21                              MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                           OFFICE OF INSPECTOR GENERAL



    Finding 6: OA Did Not Review Bank Rebates for Accuracy
    and Proper Recording
           OA did not verify the accuracy and proper recording of quarterly
           rebates it received from banks that issued purchase cards, resulting
           in noncompliance with the Charge Card Abuse Prevention Act.

    Each quarter the SEC receives rebates from U.S. Bancorp for the purchase card
    program. The rebate amounts are based on the volume of purchases the SEC makes
    (minus any refunds the SEC has received) in a given quarter and the timeliness of the
    settlement of these purchases with the bank. The rebate amounts the SEC has
    received by FY are shown in Table 4.

                          Table 4: SEC Purchase Card Rebates by FY
                                     FY                 Rebate
                                   2010                 $57,054
                                   2011                 $53,300
                                   2012                 $24,364
                                   2013                 $32,490
                          Source: A/OPC, OA.

    The Charge Card Abuse Prevention Act requires that “[r]ebates and refunds based on
    prompt payment, sales volume, or other actions by the agency on purchase card
    accounts are reviewed for accuracy and properly recorded as a receipt to the agency
    that pays the monthly bill.”

    The A/OPC informed us that OA did not review rebate amounts for accuracy or verify
    that the rebates were properly recorded as a receipt to the SEC. The A/OPC said that
    she would begin reviewing these activities in the quarter commencing October 1, 2013.

    By not reviewing the rebate amounts for accuracy and ensuring that the SEC properly
    records the rebates, the SEC could be exposed to the risks that (1) the bank did not
    properly calculate the rebate amounts; or (2) the SEC did not correctly record them.

    Conclusion

    OA did not review rebate amounts for accuracy and did not ensure that the SEC
    properly recorded the rebates, as required by the Charge Card Abuse Prevention Act.
    Reviewing rebates and following up as needed are important procedures that OA
    should implement to ensure that the bank’s rebate amounts are accurate and that the
    SEC properly records them.




    REPORT NO. 517                             22                                 MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                            OFFICE OF INSPECTOR GENERAL


        Recommendation 11:

        In accordance with the Government Charge Card Abuse Prevention Act of 2012, the
        Office of Acquisitions should review for accuracy and proper recording as a receipt
        to the agency rebates issued by the SEC’s purchase card-issuing bank.

           Management Comments. The OA Director concurred with this
           recommendation. Management’s complete response is reprinted in Appendix III.

           OIG Evaluation of Management’s Response. We are pleased that
           management concurred with this recommendation. We will conduct followup
           activities to determine whether OA takes corrective action that is responsive to
           the recommendation.




    REPORT NO. 517                              23                              MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                            OFFICE OF INSPECTOR GENERAL



                     Appendix I. Scope and Methodology

    We conducted this performance audit in accordance with generally accepted
    government auditing standards. Those standards require that we plan and perform the
    audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
    findings and conclusions based on our audit objectives. We determined that the
    evidence obtained provides a reasonable basis for our findings and conclusions based
    on our audit objectives.

    Scope. The audit covered the period of October 1, 2009, to September 30, 2013. The
    scope included reviews of (1) governing purchase card laws, regulations, and guidance;
    (2) OP 10-6; (3) purchase card and convenience check transactions; (4) OA’s training
    files; (5) MCLs; (6) purchase and transaction information from the SEC’s purchase card-
    issuing banks, J.P. Morgan Chase and U.S. Bancorp; (7) purchase card rebates; and
    (8) the A/OPC’s duties.

    We conducted fieldwork from January 2013 to March 2014 at the SEC’s headquarters in
    Washington, D.C.

    We tested purchase card and convenience check transactions. We were unable to test
    transactions for October 2009 because of the unavailability of bank statements for that
    month. We did not test transactions from January through March of 2012 because the
    information from U.S. Bancorp indicated that these months’ transactions had not been
    closed. These months represented a small percentage of the total months included in
    our sample and, in our opinion, the absence of these months did not impact our ability
    to draw conclusions on the SEC’s purchase card program.

    Methodology. To achieve the objective of determining whether SEC’s purchase card
    program operates effectively and is managed in compliance with governing laws,
    regulations, and agency policy, we obtained and reviewed relevant laws, regulations,
    and guidance. We also reviewed the SEC’s internal operating procedures for the
    purchase card program. Further, we interviewed OA personnel who were responsible
    for overseeing purchase card operations.

    To determine whether staff members were properly trained in purchase card operations,
    we reviewed for appropriate content the online training course entitled “GSA SmartPay
    Purchase Card Training (Cardholders)” that the SEC requires PCHs and AOs to take.
    We also reviewed the PCHs’ and AOs’ completion certificates in OA’s training files. For
    those PCHs and AOs that had either outdated training certificates (over 3 years old) or
    no training certificate, we contacted them to determine whether they had current training
    certificates in their possession.

    To achieve the objective of assessing whether the internal controls for the SEC’s
    purchase card program were adequately designed, appropriately implemented, and
    effectively operated to detect purchase card program representatives’ abuse or misuse
    of the card, we reviewed the “Required Safeguards and Internal Controls” in the
    Government Charge Card Abuse Prevention Act of 2012. We determined whether the

    REPORT NO. 517                             24                               MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                              OFFICE OF INSPECTOR GENERAL


    safeguards and internal controls that the Act requires existed in the SEC’s program.
    Further, we assessed risk, focusing on risk considerations that we had identified in our
    internal control review.

    To further meet our audit objectives, we developed and performed tests of purchase
    card and convenience check transactions. We tested a sample of transactions from
    J.P. Morgan Chase for FYs 2010, 2011, and the first quarter of FY 2012, and U.S.
    Bancorp from January 2012 to September 2013. As noted in the “Scope” section of this
    report, we were unable to test transactions for October 2009 and January through
    March 2012, because of the unavailability or reliability of data.

    For the convenience checks in our review, we requested that the PCHs provide us with
    documentation showing that the PCHs were not able to procure the service or goods
    with a purchase card. We obtained and reviewed documentation such as purchase
    card logs, invoices and documents showing the receipt of the goods or services, and
    evidence of the AO’s prior approval of purchases. For transactions that had purchases
    from the same vendor within several days of the transaction date, we requested
    additional documentation from the PCH to assess whether any of those transactions
    might be a split purchase.

    To determine whether there were categories of purchases that could be made by
    means other than purchase cards to better aggregate purchases and obtain lower
    prices, we analyzed the purchase card and convenience check transactions selected for
    our testing during the period October 2009 – September 2012. We sorted them into
    categories by nature of goods or services and then reviewed the categories. We
    determined that two categories—office supplies (32 percent, 24 of 74 transactions in our
    sample) and process servers (10 percent, 7 of 74 transactions in our sample)—
    accounted for approximately 42 percent of the transactions. The 24 office supply
    purchases originated from SEC’s headquarters and 9 regional offices that used
    15 different vendors. The seven purchases for the services of process servers
    originated from five regional offices that used different vendors for all seven purchases.

    We asked OA whether the SEC could realize cost efficiencies by aggregating
    purchases. OA informed us that for office supplies, the items would have to be shipped
    to each regional office and additional expenses would be incurred for shipping. There
    would also be an increased lead time needed to plan for these purchases. We were
    told that, for office supplies and process servers, the cost in time and effort would not be
    worth the potential savings involved with aggregating purchases. On the basis of our
    inquiries and analysis, we concluded that aggregating purchases would not be more
    cost effective than using the purchase card for individual purchases.

    Internal Controls. We obtained an understanding of OA’s internal controls over the
    purchase card program and assessed the internal controls in accordance with the
    “Required Safeguards and Internal Controls” in the Government Charge Card Abuse
    Prevention Act of 2012. For our review of internal controls, we considered the following:

           Control Environment – We identified the A/OPC in OA as the designated internal
            control official over purchase card and convenience check operations and

    REPORT NO. 517                               25                               MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                             OFFICE OF INSPECTOR GENERAL


            determined that this person is responsible for ensuring that the program is
            operating in accordance with U.S. Government laws, regulations, and guidance,
            and OP 10-6.

           Risk Assessment – We conducted a risk assessment that focused on risk
            considerations that we had identified in our internal control review. We assessed
            whether the safeguards and internal controls enumerated in the Charge Card
            Abuse Prevention Act were present and how they were monitored to ensure that
            the purchase card program functioned properly. We summarized our risk
            assessment on the basis of inherent risk, control risk, and detection risk and
            initially concluded that the overall level of risk was moderate to high. We
            subsequently reduced our assessment of overall risk to moderate, based upon
            items that came to our attention during the course of the audit. These items
            included:

               o The A/OPC’s FY 2013 reviews of records maintained by all PCHs, and the
                 detailed memo to the OA Director of her findings, many of which we had
                 also noted. We consider this to be a “best practice.”

               o Communications from the A/OPC that she had taken action in order to
                 correct missing training certificates and bank reconciliation timeliness.

               o The August 2013 training conducted by the A/OPC for all PCHs and AOs.

               o The SEC’s use, beginning in FY 2013, of U.S. Bancorp’s “Analytics”
                 software, which searches for questionable purchase transactions.

            We used the results of our risk assessment to determine the attributes for testing
            and the estimated error rate.

           Monitoring – We discussed with the A/OPC her program for conducting reviews
            from January 2013 to August 2013 of cardholder activities. We tested the
            A/OPC’s oversight of training by reviewing OA’s training files to determine
            whether training was current. Also, we reviewed the A/OPC’s monitoring of the
            PCH and AO bank reconciliation process.

           Control Activities – We reviewed the SEC’s operating procedure for its
            government purchase card program and U.S. Government laws, regulations, and
            guidance on purchase card and convenience check operations and identified
            areas where compliance needed improvement. We reviewed the A/OPC’s
            control activities over PCH and AO training, the PCHs’ timeliness in reconciliation
            of transactions documents with bank charges, and the compliance by PCHs and
            AOs with documentation and purchasing policies.

           Information and Communication – We identified how the A/OPC disseminated
            information to the PCHs and AOs so that they could properly and effectively carry
            out their responsibilities. The A/OPC conducted training in November 2012 to
            acquaint PCHs and AOs with new online banking procedures and in August 2013

    REPORT NO. 517                               26                              MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                            OFFICE OF INSPECTOR GENERAL


           to discuss policy and procedural matters. The A/OPC reviewed the timeliness of
           PCHs’ reconcilement of bank charges with related documentation and followed
           up by sending reminder emails to the PCHs and AOs who missed, or would miss,
           the 30-day reconciliation deadline.

    Overall, OA has established internal controls that reduce the risk of fraud, waste, and
    error in the usage of purchase cards and convenience checks. However, certain areas
    of compliance and oversight need strengthening. These areas, as discussed in the
    report’s findings, include improved oversight of PCH and AO purchase card training,
    compliance by PCHs and AOs with purchase card policy, timely reconciliation of bank
    information, and review of rebates for accuracy and their proper recording in the SEC’s
    records.

    Statistical Sampling. We used E-Z-Quant statistical sampling software to determine
    the sample size of our two transactions tests, for FYs 2010-2012 and for FY 2013. We
    used a 90-percent confidence level, 10-percent precision range, and 5-percent
    expected error rate in determining our sample sizes. The result was two samples of
    identical size, 74 transactions. For FYs 2010-2012, we obtained bank information for
    J.P. Morgan Chase and U.S. Bancorp transactions and used systematic selection with
    random number starting points to select the purchase card and convenience check
    transactions for testing. For FY 2013, we obtained a listing of U.S Bancorp transactions
    and used E-Z-Quant’s random number generator to select the items to test. We
    requested that the PCHs provide us with documentation in support of each transaction
    selected.

    Prior Coverage. In September 2008, the Office of Inspector General issued its audit
    report entitled Internal Control Review of the Government Purchase Card Program,
    Report No. 440. The report contained 17 recommendations for corrective action, all of
    which were closed. Three findings in our current report were also identified in the 2008
    audit report: “BankCard Log Not Used,” “Documentation Not Available,” and “Untimely
    Certification [of training].”

    In addition, the SEC engaged Cotton & Company LLP (Cotton) to perform a risk
    assessment in FY 2013 of select programs and activities administered by the SEC, for
    compliance with the Improper Payments Elimination and Recovery Act of 2012. Cotton
    communicated its findings, which included certain internal control exceptions relating to
    the purchase card program, including use of convenience checks, in its Risk
    Assessment Summary Report dated June 16, 2013.




    REPORT NO. 517                              27                              MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                           OFFICE OF INSPECTOR GENERAL



       Appendix II. Applicable Federal Laws, Regulations,
                     Policies, and Guidance
    48 C.F.R. Parts 13 and 32 (Federal Acquisition Regulation). This FAR section
    outlines the requirements for acquisitions made with purchase cards. Subpart 13.2
    details the guidelines for purchases at or below the micro-purchase threshold. Subpart
    13.3 details various simplified acquisition methods including government purchase
    cards and explains procedures for the handling of those simplified acquisition methods.
    48 C.F.R. § 13.003 explains the prohibition on split purchases for acquisitions.

    Government Charge Card Abuse Prevention Act of 2012, Public Law 112-194,
    October 5, 2012. The Act explains the requirements for management of purchase
    cards and convenience checks in executive agencies. It details the safeguards and
    internal controls required for the management of the purchase card program, along with
    penalties for violations and OIG risk assessments and audits required to evaluate the
    purchase card and convenience check process.

    National Archives and Records Administration, General Records Schedules,
    Transmittal No. 22, April 2010, General Records Schedule 3, Procurement,
    Supply, and Grant Records. Number 3.a.(1)(b) provides guidance on destruction of
    procurement files. It states that files for transactions at or below the simplified
    acquisition threshold are to be destroyed 3 years after final payment.

    OMB Circular No. A-123, Appendix B, Revised, January 15, 2009. This document
    prescribes policies and procedures for agencies on how to maintain internal controls
    that reduce the risk of fraud, waste, and error in government charge card programs. It
    provides guidance on, among other things, the charge card management plan, training,
    risk management, and the use of convenience checks.

    SEC Operating Procedure, OP 10-6, Government Purchase Card Program. The
    operating procedure details the policies and procedures for the SEC’s purchase card
    program. The procedure describes the responsibilities of those who manage or
    administer the program. OP 10-6 succeeds SECR 10-6, Rev. 1, Government Purchase
    Card Program.

    Government Purchase Card Program Supplemental Procedures, December 21,
    2012. The procedures supplement SEC OP 10-6 and address such areas as
    maintaining a purchase card log and approving purchase card transactions. The
    supplemental procedures describe the “pay and chase” system and require that PCHs,
    at a minimum, reconcile their transactions within 30 days of the bank’s posting date.

    SEC Administrative Regulations, SECR 10-1 (Rev. 1), “Ratification of
    Unauthorized Commitments,” September 27, 2012. This regulation prescribes
    policies and procedures pertaining to the ratification of unauthorized commitments.

    Treasury Financial Manual, Part 4—Chapter 4500, “Government Purchase Cards.”
    The chapter outlines the procedures for all agencies that have Government purchase

    REPORT NO. 517                             28                              MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                           OFFICE OF INSPECTOR GENERAL


    card programs. It defines the responsibilities of individuals who manage or administer
    the purchase card program.

    OMB M-13-21, “Implementation of the Government Charge Card Abuse
    Prevention Act of 2012,” September 6, 2013. This memorandum provides guidance
    to agencies and Offices of Inspector General for implementing the provisions of the Act.

    GSA SMARTPAY® SMART BULLETIN, Smart Bulletin No. 021, September 6, 2013;
    revised and reissued November 18, 2013. The Bulletin provides a summary of the
    requirements of the Government Charge Card Abuse Prevention Act of 2012, the
    implementation of which is described in OMB M-13-21, and provides A/OPCs with the
    compliance summary matrix addressed in OMB M-13-21.




    REPORT NO. 517                             29                              MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                                       OFFICE OF INSPECTOR GENERAL



                    Appendix III. Management Comments

                                              MEMORANDUM

                                                March 26, 2014



    TO:             Rebecca Sharek, Deputy Inspector General for Audits, Evaluations, and Special
                    Projects, Office of Inspector General

    FROM:           Vance Cathell, Director, Office of Acquisitions

    SUBJECT:        Response to SEC IG’s Draft Audit 517, Controls Over the SEC’s Government
                    Purchase Card Program

    Thank you for the opportunity to review and comment on the recommendations in draft Audit
    Report, Controls Over the SEC’s Government Purchase Card Program dated March 13, 2014.
    The Office of Acquisitions (OA) appreciates the recommendations designed to strengthen the
    OA’s controls over the purchase card program. We are pleased the OIG found that controls to
    administer the SEC’s purchase card program appear to be reasonable, and that certain procedures
    are considered a best practice.
    I welcome your suggestions on improvements in our policies and processes. OA is committed to
    assuring proper management and oversight of the purchase card program, assuring appropriate
    safeguards are present and reinforcing our processes of internal controls to provide reasonable
    assurance that the card program is used efficiently, economically, and effectively.
    Recommendation 1: The Office of Acquisition should (a) establish procedures to periodically
    verify that purchase cardholders and approving officials have taken the required purchase card
    and convenience check training; and (b) restrict purchase cardholders’ use of purchase cards or
    approving officials’ participation in the approval process when those individuals do not timely
    complete required purchase card training.
    OA concurs with this recommendation. As recognized in your report, OA had identified this
    issue and was working to correct it during the audit. We completed a 100% verification of
    training in July 2013. We established internal procedures, and have controls in place to assure
    that training is current and that OA takes action to restrict officials’ participation if training is not
    current.
    Recommendation 2: The Office of Acquisitions should remind purchase cardholders and
    approving officials of the requirement to (a) notify the Agency/Organization Program
    Coordinator that they have completed initial and refresher training; and (b) send their training
    certificates to the Agency/Organization Program Coordinator.
    OA concurs with this recommendation. The Agency/Organization Program Coordinator
    (AOPC) conducted training in August 2013, and provided a general reminder to all GPC


    REPORT NO. 517                                     30                                    MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                                  OFFICE OF INSPECTOR GENERAL


    participants. As training renewals become due, each participant will be reminded individually
    and appropriate action will be taken if their training certificates are not received in OA.
    Recommendation 3: The Office of Acquisitions should ensure that the Agency/Organization
    Program Coordinator takes these actions: (a) continues to conduct periodic purchase card
    reviews and monitors compliance with purchase card policies such as (1) transaction approvals
    by approving officials prior to purchase; (2) adequate documentation of purchase card and
    convenience check transactions; and (3) maintenance of purchase logs using the purchase log
    template; and (b) promptly communicates to the appropriate purchase cardholders and approving
    officials any deficiencies identified during these reviews that need corrective action.
    OA concurs with this recommendation. We especially appreciate your recognition in the report
    that the procedures we have established are a best practice. The AOPC will continue to follow
    these procedures and communicate any deficiencies identified to cardholders and approving
    officials for corrective action.
    Recommendation 4: The Office of Acquisitions should (a) remind purchase cardholders and
    approving officials that only cardholders may order goods and services; and (b) ensure that the
    Agency/Organization Program Coordinator includes compliance with this requirement in her
    periodic purchase card reviews.
    OA concurs with this recommendation. The AOPC reminded GPC participants during the
    August, 2013 training that only cardholders may place orders, and will review for compliance
    during the periodic purchase card reviews.
    Recommendation 5: The Office of Acquisitions should take appropriate action, up to and
    including suspension and cancellation of purchase card or approval authority, for cardholders
    and approving officials who do not comply with purchase card policies.
    OA concurs with this recommendation. Based on the facts of any occurrence, OA will consider
    other remedies up to and including suspension or cancellation of program authority for those
    who fail to comply with purchase card policies.
    Recommendation 6: The Office of Acquisitions should consider obtaining a contract for
    deposition services.
    OA concurs with this recommendation. Office of Acquisitions, Mission Support Branch in
    conjunction with Enforcement Division has been working on this strategic sourcing initiative. A
    request for proposal was issued, proposals are being evaluated, and an award is anticipated in the
    near future.
    Recommendation 7: The Office of Acquisitions should determine whether the purchase of
    deposition services without proper authority and approval is consistent with (a) SEC Operating
    Procedure OP 10-6, “Government Purchase Card Program”; and (b) SEC Administrative
    Regulations SECR 10-1 (Rev. 1), “Ratification of Unauthorized Commitments,” and take
    appropriate action as necessary.
    OA concurs with this recommendation. OA shares your concern about potential procurement of
    deposition or other services without proper authority. We are committed to implementing the
    GPC Program with all reasonable controls to assure proper exercise of authority. Our ongoing

    REPORT NO. 517                                  31                                 MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                                   OFFICE OF INSPECTOR GENERAL


    efforts to establish contractual methods to support deposition services, increase oversight, and
    enhance training for program participants will effectively manage risk in this area.
    Recommendation 8: The Office of Acquisitions should ensure that the Agency/Organization
    Program Coordinator, at least annually, reviews the purchase cardholders’ monthly credit limits
    and adjusts the limits on the basis of the purchase cardholders’ actual needs.
    OA concurs with this recommendation. The AOPC has instituted a review of the monthly credit
    limits, to occur annually at the minimum.
    Recommendation 9: The Office of Acquisition should establish and implement policies on the
    number of purchase cards issued by various component organizations, the categories of
    component organizations, credit limits authorized for various categories of cardholders, and the
    categories of employees who are eligible to be issued a purchase card, as required under the
    Government Charge Card Abuse Prevention Act of 2012.
    OA concurs with this recommendation. Although SEC has no component organizations who
    will be issuing cards, we will establish limits on the categories of employees who are eligible to
    receive purchase cards as well as their credit limits.
    Recommendation 10: The Office of Acquisitions should (a) notify the supervisors of purchase
    cardholders and approving officials who are habitually late reconciling purchase card
    transactions with bank information or approving such reconciliations, and (b) consider cancelling
    the purchase program authorities of such employees.
    OA concurs with this recommendation. As noted in the report, the A/OPC has already issued
    guidance to the GPC participants that late reconciliation will result in suspension of the
    cardholder account, and we will consider other remedies up to and including cancellation of
    program authority.
    Recommendation 11: In accordance with the Government Charge Card Abuse Prevention Act
    of 2012, the Office of Acquisitions should review for accuracy and proper recording as a receipt
    to the agency rebates issued by the SEC’s purchase card-issuing bank.
    OA concurs with this recommendation.




    REPORT NO. 517                                  32                                  MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                           OFFICE OF INSPECTOR GENERAL




             Appendix IV. OIG Response to Management
                            Comments

    The OIG is pleased that OA concurred with the report’s 11 recommendations for
    corrective action. We are also encouraged that OA has indicated that it has taken
    certain actions to address many of the recommendations in this report.

    We believe that fully implementing all of the recommendations will enhance the controls
    over the SEC’s government purchase card program.




    REPORT NO. 517                            33                               MARCH 28, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                          OFFICE OF INSPECTOR GENERAL


To Report Fraud, Waste, or Abuse, Please Contact:
    Web:                  www.reportlineweb.com/sec_oig

    E-mail:               oig@sec.gov

    Telephone:            (877) 442-0854

    Fax:                  (202) 772-9265

    Address:              U.S. Securities and Exchange Commission
                          Office of Inspector General
                          100 F Street, N.E.
                          Washington, DC 20549-2736


Comments and Suggestions
    If you wish to comment on the quality or usefulness of this report or suggest ideas for
    future audits, please contact Rebecca Sharek, Deputy Inspector General for Audits,
    Evaluations, and Special Projects at sharekr@sec.gov or call (202) 551-6083.
    Comments, suggestions, and requests can also be mailed to the attention of the Deputy
    Inspector General for Audits, Evaluations, and Special Projects at the address listed
    above.




    REPORT NO. 517                            34                              MARCH 28, 2014
